d
No. 19-123
IN THE

Supreme Court of the United States
SHARONELL FULTON,

ET AL .,

Petitioners,

—v.—

CITY

OF

PHILADELPHIA, PENNSYLVANIA,

ET AL .,

Respondents,

—and—

SUPPORT CENTER FOR CHILD ADVOCATES
AND P HILADELPHIA FAMILY P RIDE ,
Intervenor-Respondents.
ON APPEAL FROM THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT

BRIEF IN OPPOSITION FOR INTERVENOR-RESPONDENTS

Mary Catherine Roper
Molly Tack-Hooper
AMERICAN CIVIL LIBERTIES
UNION OF PENNSYLVANIA
P.O. Box 60173
Philadelphia, PA 19102
Fred T. Magaziner
Catherine V. Wigglesworth
Will W. Sachse
DECHERT LLP
Cira Centre
2929 Arch Street
Philadelphia, PA 19104

Leslie Cooper
Counsel of Record
Joshua A. Block
James D. Esseks
Louise Melling
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2584
lcooper@aclu.org
Daniel Mach
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005

CORPORATE DISCLOSURE STATEMENT
Intervenor-Respondents Support Center for
Child Advocates and Philadelphia Family Pride do
not have any parent entities and do not issue stock.

i

TABLE OF CONTENTS
CORPORATE DISCLOSURE STATEMENT ............. i
TABLE OF AUTHORITIES ...................................... iii
STATEMENT .............................................................. 1
REASONS TO DENY THE WRIT ........................... 15
I.

THERE IS NO CIRCUIT SPLIT
REGARDING HOW TO ASSESS
PETITIONERS’ FREE EXERCISE
CLAIM. ........................................................... 15

II.

THE PROCEDURAL POSTURE OF THIS
CASE MAKES IT AN INAPPROPRIATE
VEHICLE FOR THIS COURT’S
INTERVENTION. .......................................... 20

III.

THIS CASE IS A POOR VEHICLE TO
REEXAMINE SMITH BECAUSE EVEN
UNDER PRE-SMITH LAW, THE CITY’S
REQUIREMENT THAT CONTRACTORS
CARRYING OUT A GOVERNMENT
PROGRAM ABIDE BY THE TERMS OF
THE PROGRAM WOULD BE VALID. ......... 23

IV.

THE THIRD CIRCUIT FAITHFULLY
APPLIED THIS COURT’S
“UNCONSTITUTIONAL CONDITIONS”
PRECEDENTS ............................................... 29

CONCLUSION.......................................................... 33

ii

TABLE OF AUTHORITIES
CASES
Abbott v. Perez, 138 S. Ct. 2305 (2018) .................... 23
Agency for International Development v. Alliance for
Open Society International,
570 U.S. 205 (2013) ............................................... 14
Blackhawk v. Pennsylvania,
381 F.3d 202 (3d Cir. 2004) ................................... 17
Bowen v. Roy, 476 U.S. 693 (1986) ........................... 25
Buck v. Gordon, No. 1:19-CV-286, 2019 WL 4686425
(W.D. Mich. Sept. 26, 2019)............................. 19, 20
Church of Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520 (1993) .......................... 16, 17
Employment Division v. Smith,
494 U.S. 872 (1990) ........................................ passim
Garcetti v. Ceballos,
547 U.S. 410 (2006) ............................................... 31
Heart of Atlanta Motel, Inc. v. United States,
379 U.S. 241 (1964) ............................................... 28
Hosanna-Tabor Evangelical Lutheran Church & Sch.
v. EEOC, 565 U.S. 171 (2012) ............................... 27
Larkin v. Grendel’s Den, Inc.,
459 U.S. 116 (1982) ............................................... 26
Legal Servs. Corp. v. Velasquez,
531 U.S. 533 (2001) ............................................... 30
Lighthouse Inst. for Evangelism, Inc. v. City of Long
Branch, 510 F.3d 253 (3d Cir. 2007) ................. 9, 17

iii

Lyng v. Nw. Indian Cemetery Protective Ass’n,
485 U.S. 439 (1988) ......................................... 25, 26
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Comm’n, 138 S. Ct. 1719 (2018) ...................... 17, 22
McCreary Cty., Ky. v. Am. Civil Liberties Union of
Ky., 545 U.S. 844 (2005) ........................................ 23
O’Hare Truck Serv., Inc. v. City of Northlake,
518 U.S. 712 (1996) ............................................... 29
Roberts v. U.S. Jaycees, 468 U.S. 609 (1984) ........... 28
Rust v. Sullivan, 500 U.S. 173 (1991) ................ 14, 30
Stormans Inc. v. Wiesman,
794 F.3d 1064 (9th Cir. 2015) ......................... 17, 19
Stormans, Inc. v. Wiesman, 136 S. Ct. 2433 (2016). 19
Teen Ranch, Inc. v. Udow,
479 F.3d 403 (6th Cir. 2007) ........................... 15, 16
Tenafly Eruv Ass’n, Inc. v. Borough of Tenafly,
309 F.3d 144 (3d Cir. 2002) ..................................... 9
Trump v. Hawaii, 138 S. Ct. 2392 (2018) ................ 23
United States v. Lee, 455 U.S. 252 (1982) ................ 28
Univ. of Tex. v. Camenisch, 451 U.S. 390 (1981) ..... 20
Va. Military Inst. v. United States,
508 U.S. 946 (1993) ............................................... 21
Washington v. Trump,
847 F.3d 1151 (9th Cir. 2017) ......................... 17, 18
CONSTITUTION
U.S. Const. amend. I .......................................... passim

iv

OTHER AUTHORITIES
Catholic Charities W. Mich. v. Mich. Dep’t of Health
& Human Servs., No. 2:19-cv-11661, Docket entry
No. 23-4 (Mich. E.D. July 24, 2019) ...................... 26
Catholic Social Services: Adoption,
http://adoption-phl.org/ ............................................ 1
Lydia Currie, I was barred from becoming a foster
parent because I am Jewish, Jewish Telegraph
Agency (Feb. 5, 2019) ............................................ 27
Maddonna v. U.S. Dep’t of HHS,
No. 6:19-cv-00448, Docket entry No. 1 (D.S.C. Feb.
15, 2019) ................................................................. 28
Meg Kinnard, Lawsuit claims discrimination by
foster agency, Associated Press (Feb. 15, 2019) .... 27

v

STATEMENT OF THE CASE
A.

Philadelphia’s Foster Care System

When the City of Philadelphia (the “City”)
removes children from their families because of
abuse or neglect and takes them into its custody, the
City is responsible for ensuring their safety and
wellbeing. Like many other cities and states,
Philadelphia has chosen to conduct this public
function by contracting with private organizations to
provide child welfare services for wards of the City.
Pet. App. 13a. Pursuant to the City’s foster care
contracts, private agencies recruit, screen, train, and
certify suitable foster families that meet the
standards of eligibility established by Pennsylvania
law. Pet. App. 13a, 56a-58a. The City pays agencies
with taxpayer dollars for providing these government
services to children. The contracts are renewable on
an annual basis. Pet. App. 13a.
The public function of providing foster care for
children in the government’s care is entirely distinct
from voluntary private adoptions where birth
parents choose to place their infant for adoption, and
an adoption agency assists in locating adoptive
parents. See Catholic Social Services: Adoption,
http://adoption-phl.org/ (last visited Sept. 20, 2019)
(describing CSS’s private adoption services). The City
does not play any role in the private adoption
process, and the contractual provisions at issue in
this case do not restrict the ability of birth parents,
CSS, or any other agency that administers private
adoptions to select families consistent with their
faith. This case concerns only the City’s program to
ensure proper care of children in its custody.

1

When this litigation began, the City had
foster-care contracts with 30 agencies. Pet. App. 57a.
For many years, every foster care contract has
included a provision prohibiting contractors from
discriminating against prospective foster families on
the basis of characteristics enumerated in the
Philadelphia Fair Practices Ordinance, including
sexual orientation. Pet. App. 59a-60a. These
contractual provisions ensure that contractors do not
discriminate when they act on the City’s behalf to
perform a public function.1
The nondiscrimination requirements in the
City’s foster care contracts also ensure that the City
assembles the largest possible pool of foster families
to meet the needs of the children in the City’s care.
Petitioners dispute the City’s interpretation of the foster care
contracts. They contend that CSS is not a public accommodation
under the City’s Fair Practices Ordinance, and that the contract
requires contractors to follow the City’s Fair Practices
Ordinance only if the contractor qualifies as a public
accommodation. Pet. 11-12.
1

The Third Circuit concluded that the parties’ dispute
over how to interpret the contractual language was moot
because CSS’s foster care contract expired on June 30, 2018,
and the City, to avoid any doubt among contractors going
forward,
added
“new,
explicit
language
forbidding
discrimination on the ground of sexual orientation as a
condition of contract renewal.” Pet. App. 25a.
Although the court of appeals did not resolve which
party’s interpretation of the contract was correct, it noted that
the City’s interpretation was “hardly frivolous” and rejected
CSS’s assertion that the City’s interpretation of the contract
was “invented during this controversy.” Pet. App. 34a. The court
of appeals found that the record did not support such assertions
and that there was no evidence that the City adopted its
interpretation “disingenuously or as a pretext.” Pet. App. 34.

2

C.A. J.A. 422, 426. The children for whom the City is
responsible come from diverse backgrounds and
family circumstances. C.A. J.A. 426-27, 572-73.
Every child has unique needs, many children
experience significant challenges, and not every
family is a good fit for every child. C.A. J.A. 572-73.
The more families that are licensed and the more
diverse the pool, the better all children’s prospects
are of being placed in a family that is well matched
to meet their needs. C.A. J.A. 426. 428-29.
The City has never authorized a private
agency performing its contracted-for foster care
services to turn away prospective foster parents
in violation of the contracts’ nondiscrimination
provisions.
Pet.
App.
34a-35a,
100a-101a.
Contracting agencies are permitted to inform
families that other agencies may be better suited for
their needs, such as where an agency is located closer
to a family or has specialized expertise. But the City
has never authorized agencies to turn away families
who want to work with them, whether on the basis of
race, religion, sexual orientation, or any other
characteristic unrelated to the family’s ability to care
for a child. Pet. App. 35a, 101a.
The City’s nondiscrimination requirements for
those contracting to perform its foster care
responsibilities are consistent with best practices
recognized by the Child Welfare League of America
and every leading child-welfare organization in
the country. See Voice for Adoption, et al., C.A.
Amicus Br. 3-8. According to these child welfare
professionals, allowing foster care agencies to exclude
same-sex couples—or any other class of potentially
qualified foster families—undermines the best

3

interest of children by shrinking the available pool
of families and thereby limiting children’s
opportunities to be placed with a family that
can meet their needs. Id. at 8-12. It is not surprising,
therefore, that numerous states have adopted similar
nondiscrimination requirements for governmentcontracted
child
welfare
providers.
See
Massachusetts, et al., C.A. Amicus Br. 4-7.
Any discrimination in the public foster care
system undermines efforts to find families for
children even if other agencies are willing to “serv[e]
the LGBT community.” Pet. 7. According to experts
in child welfare, when agencies delivering foster care
services discriminate, it deters families from
pursuing fostering even where there are other
agencies that accept all qualified families. See Voice
for Adoption, et al., C.A. Amicus Br. 3-8. The sting of
discrimination prevents some families from risking
exposure to further discrimination. Id. And the
challenge and stress of navigating a system that
permits discrimination is not something all families
feel able to take on. Id.
B.

The City’s Contracts With Catholic Social
Services

For many years, the City has entered into a
series of one-year contracts for CSS to act on the
City’s behalf in providing a range of services to youth
in the foster care system. In addition to the contract
to recruit, screen, train and certify foster families
(“foster care services”), the City contracts with CSS
to provide group homes, or “congregate care
facilities,” for children in the City’s custody. The City
also contracts with CSS to serve as a “Community

4

Umbrella Agency,” coordinating services for children
in foster care.
According to CSS, its family foster care
program in 2017-18 served an estimated 120
children, its congregate care program served over
twice as many children, and its Community
Umbrella Agency served 800 children. C.A. J.A. 305,
355-56. For 2017-2018, the City contracted with CSS
for more than $19.4 million in taxpayer funds for
these
services.
C.A.
J.A.
1019-20.
Only
approximately $1.7 million of these funds were for
CSS’s foster-care services. C.A. J.A. 983.
The City has been aware for decades that CSS
believes that marriage should be limited to one man
and one woman. This never stopped the City from
contracting with CSS because the City assumed that
CSS, like other foster care agencies, was operating in
accordance with the contract terms, which prohibit
discrimination against prospective foster parents.
On March 9, 2018, the City learned for the
first time that two of its foster care contractors were
unwilling to accept prospective foster families headed
by same-sex couples. Pet. App. 14a. A reporter from
the Philadelphia Inquirer called the Philadelphia
Department of Human Services and stated that CSS
and Bethany Christian Services would not accept
same-sex couples as foster parents because of the
agencies’ religious objections. Id. In response, the
Commissioner of Human Services, Cynthia Figueroa,
called officials at both CSS and Bethany Christian
asking if this report was true. Id. Both organizations
confirmed the report. Id. Commissioner Figueroa
then called a number of other foster care agencies

5

asking whether they had similar policies; none did.
Pet. App. 14a-15a.
Commissioner Figueroa met with the
Secretary and Executive Vice President of CSS,
James Amato, to try to persuade CSS to comply with
the contract requirements so the City could continue
contracting with CSS for foster care services. But
CSS would not agree to comply. Pet. App. 15a. After
the meeting, Figueroa put an “intake freeze” on
referring children to CSS and Bethany Christian
Services, except where necessary to place children
with relatives, siblings, or families with whom they
had a prior relationship. Pet. App. 15a-16a. Figueroa
testified that she implemented the freeze because of
her concern that CSS’s contractual relationship
might end in the near future if it would not comply
with the terms of the contract’s nondiscrimination
requirements. Pet. App. 16a. Given the preference for
stability in agency care of children, Figueroa did not
want to send any new children to an agency that
might well have to cease City-contracted services.
Id.2
Meanwhile, the 2017-18 foster care contracts
were set to expire on June 30, 2018. Because CSS
disputed the City’s interpretation of the contract’s
nondiscrimination requirements, see supra n.1, the
City informed CSS that it would add new language to
all the 2018-19 contracts to resolve any ambiguity.
In the wake of the Philadelphia Inquirer article, the Mayor
and the City Council criticized CSS’s practice of refusing to
accept same-sex couples as potential foster parents. Pet. App.
17a. The Philadelphia Human Rights Commission also wrote to
CSS. Id. But Commissioner Figueroa made her decisions
independently. Pet. App. 34a, 96a-97a.
2

6

The new language would make absolutely explicit
that contractors could not discriminate against
prospective foster parents based on characteristics
protected by the City’s Fair Practices Ordinance. Pet.
App. 18a, 170a.3
Bethany Christian Services agreed to comply
with the City’s nondiscrimination requirements and
enter into a new contract with the City for 2018-19.
Pet. App. 103a. CSS declined.
The City continues to contract with CSS for
other services for children in foster care where CSS
is willing to comply with all contract requirements.
Pet. App. 16a, 36a, 50a. These include providing
congregate care and coordinating services for
children as a Community Umbrella Agency. C.A. J.A.
305, 355-56. Those annual contracts add up to
approximately $18.5 million in services each year.
C.A. J.A. 380. The only function for which CSS does
not have a contract is that of screening and certifying
families for foster care, because CSS is unwilling to
abide by the terms of this public program.4
C.

Proceedings Below

1.
About six weeks before its 2017-18
contract was set to expire, CSS and several
individuals (hereafter, “CSS”) filed this lawsuit
against the City. CSS claimed that the City’s refusal
to continue referring children to it violated its First
The text of the new contracts is not included in the evidentiary
record.
3

The City has also offered to enter into a limited foster care
contract to compensate CSS for ongoing services to CSScertified families that already have children in their care. Pet.
App. 281a.
4

7

Amendment right to free exercise of religion and
freedom of speech. Pet. App. 79a.5
Shortly
thereafter,
CSS
requested
a
preliminary injunction requiring the City to resume
referrals of children to CSS and to resume operating
under the 2017-18 contract, or enter into a new
contract that would permit CSS to provide foster care
services for children in the public child welfare
system while violating the City’s nondiscrimination
requirements. Pet. App. 19a-20a.6
Two weeks later and before discovery could be
undertaken, the district court held an evidentiary
hearing on the motion for a preliminary injunction.
Pet. App. 53a-54a. The district court subsequently
denied the motion, concluding that CSS had failed to
establish a likelihood of success on its claims or
satisfy the remaining preliminary injunction factors.
Pet. App. 7a-131a.

The complaint also asserted claims under the Establishment
Clause and under the Pennsylvania Religious Freedom Act,
which are not encompassed by CSS’s petition for a writ of
certiorari. Pet. App. 79a.
5

Support Center for Child Advocates and Philadelphia Family
Pride moved to intervene as defendants because of the impact of
this case on the children and families they represent and on
their organizations. D. Ct. Doc. 69. Support Center for Child
Advocates serves as counsel for children in dependency
proceedings for children in foster care in Philadelphia and
advocates for public policy that supports their wellbeing. Id. at
3-4. Philadelphia Family Pride is a membership organization of
LGBTQ+ parents and prospective parents (including foster and
adoptive parents) and their children, and works to recruit more
foster parents from the LGBTQ+ community. Id.
6

8

With respect to CSS’s claim under the Free
Exercise Clause, the district court concluded that the
City’s contract requirement was a neutral and
generally applicable policy under Employment
Division v. Smith, 494 U.S. 872 (1990). Pet. App. 80a88a. The district court recognized that a “law is not
neutral if it has as its object to infringe upon or
restrict practices because of their religious
motivation.” Pet. App. 80a (quoting Lighthouse Inst.
for Evangelism, Inc. v. City of Long Branch, 510 F.3d
253, 275 (3d Cir. 2007)) (alterations incorporated). It
also acknowledged that a “law is not generally
applicable when it proscribes particular conduct only
or primarily when religiously motivated.” Pet. App.
80a-81a (internal quotation marks omitted). And the
court
recognized
that
government
officials
“contravene the neutrality requirement if they
exempt some secularly motivated conduct but not
comparable religiously motivated conduct.” Pet. App.
81a (quoting Tenafly Eruv Ass’n, Inc. v. Borough of
Tenafly, 309 F.3d 144, 166 (3d Cir. 2002)).
Based on the evidence presented at the threeday hearing, the district court concluded that the
City’s insistence that agencies certifying foster
families refrain from discriminating on the basis of
characteristics protected by the City’s Fair Practices
Ordinance was a neutral, generally applicable policy.
The City’s contractual terms were therefore valid if
they survived rational-basis review under Smith.
Pet. App. 88a.
In reaching this conclusion, the district court
found no evidence in the record to support CSS’s
assertion that the City “has granted secular
exemptions to the Services Contract’s fair practices

9

provisions, but now refuse[s] a religious exemption to
CSS.” Pet. App. 99a. CSS noted that the City allows
contracting agencies to make “referrals of families for
a variety of secular reasons, including proximity,
expertise in caring for medical needs, expertise in
addressing behavioral needs, ability to find foster
placements for pregnant youth, expertise working in
a ‘kin care’ program, and other specialties or areas of
focus.” Pet. App. 101a. But the district court found
that such referrals were not exemptions from the
City’s contracting requirements. Id. The district
court found that the City allows agencies to inform
families of other agencies that may be better suited
for their needs, but does not permit them to refuse
families that want to work with them. Id.
The district court also found no evidence to
support CSS’s assertion that the City adopted its
nondiscrimination policy post hoc in response to
CSS’s actions. The district court concluded that the
City’s foster care contracts already required
contracted agencies to serve all prospective foster
parents in accordance with the City’s Fair Practices
Ordinance. Pet. App. 78a-79a; see also supra n.1.
The district court also considered whether
statements by City officials demonstrated that the
City’s enforcement of its nondiscrimination
requirement was based on anti-religious targeting or
animus. Pet. App. 93a-99a. CSS argued that
statements from the Mayor reflected hostility toward
the diocese and its religious beliefs. But the court
determined that “there was insufficient evidence at
the preliminary injunction phase to show that the
Mayor had any influence in [the Commissioner’s]
decisions in this case, thereby rendering the

10

comments irrelevant to these proceedings.” Pet. App.
94a. The district court also concluded—after hearing
and evaluating live testimony from Commissioner
Figueroa—that her remark encouraging CSS to
follow the teachings of Pope Francis was insufficient
to support a finding that her actions were motivated
by hostility to CSS’s religious beliefs about marriage,
especially in light of the City’s desire to continue
contracting with CSS. Pet. App. 98a-99a.
After
determining
that
the
City’s
nondiscrimination requirements were subject to
rational basis review under Smith, the district court
found that the City’s policy was supported by several
legitimate governmental objectives. Pet. App. 89a90a. These include an interest in “ensuring that the
pool of foster parents and resource caregivers is as
diverse and broad as the children in need,” and
“ensuring that when they employ contractors to
provide governmental services, the services are
accessible to all Philadelphians who are qualified.”
Pet. App. 90a.
With respect to CSS’s First Amendment claim
based on “compelled speech,” the district court
concluded that CSS was unlikely to succeed because
“CSS’s speech, to the extent any is required under
the [City’s contracts], constitutes governmental
speech.” Pet. App. 116a. The contract does not
require CSS to “chang[e] its activities, views, [or]
opinions,” and “CSS may continue to refuse its
private services to same sex couples outside the
confines of” performing its contracted government
services. Pet. App. 118a.
Finally, the district court concluded that the
remaining preliminary injunction factors counseled

11

against granting CSS’s motion. Pet. App. 123a-131a.
The district court explained that CSS’s loss of
contracts was an economic injury that could be fully
compensated with monetary damages. Pet. App.
124a-126a. The district court also found that CSS
had failed to prove its allegations that the loss of
contracts would harm children in foster care. Pet.
App. 128a. To the contrary, the evidence showed that
“the closure of CSS’s intake of new referrals has had
little or no effect on the operation of Philadelphia’s
foster care system.” Id. The loss of contracts would
also not prevent families that had been certified by
CSS from “continu[ing to use] their skills to provide
foster care to children” with the assistance of other
agencies. Id.7
2.
On
appeal,
the
Third
Circuit
unanimously affirmed the district court’s denial of
the motion for preliminary injunction. Pet. App. 22a51a. Applying de novo review except with respect to
witness credibility,8 the court of appeals considered
all of CSS’s proffered evidence of religious targeting,
including the history of the challenged policy, the
alleged availability of secular exemptions, and all
other alleged evidence of discriminatory intent. Pet.
This is consistent with the experience of other states in which
an agency chose to cease providing public child welfare services
because of its religious beliefs regarding same-sex couples: other
agencies, including other faith-based agencies, provided the
services, which continued without interruption.
See
Massachusetts, et al., C.A. Amicus Br. 22-27.
7

For claims under both the Free Exercise and Free Speech
Clauses of the First Amendment, the Third Circuit “do[es] not
rely on the normal clear-error standard for factual review, but
instead conduct[s] an independent examination of the record as
a whole.” Pet. App. 22a.
8

12

App. 32a-38a. Like the district court, the court of
appeals concluded that the record did not support
CSS’s contention that the City adopted its
contracting requirements prohibiting discrimination
to target or penalize CSS for its religious beliefs. Pet.
App. 32a-38a.
In reaching that conclusion, the Third Circuit
agreed with the district court that CSS had failed to
prove that the City granted secular exemptions from
its nondiscrimination obligation but not religious
exemptions. Pet. App. 35a. Although CSS contended
that “referrals from one agency to another are a
routine way of finding the best fit for a given
applicant,” the Third Circuit explained that under
the City’s practice, “while agencies are free to inform
applicants if they believe a different agency would be
a better fit, they must leave the ultimate decision up
to the applicants.” Id.
The court of appeals also agreed with the
district court that the Mayor’s statements did not
taint the agency’s actions because “there is nothing
in the record before us suggesting that he played a
direct role, or even a significant role, in the process.”
Pet. App. 34a. And the Third Circuit agreed that
Commissioner Figueroa’s statement about Pope
Francis was “made during a negotiation attempting
to find a mutually agreeable solution to this
controversy,” and that “the record does not suggest
that the City then sought to punish [CSS] for this
disagreement.” Pet. App. 33a. To the contrary:
[T]he City has been working with CSS
for many decades fully aware of its
religious character. It continues to work
with CSS as a congregate care provider

13

and as a Community Umbrella Agency
even to this day despite CSS’s religious
views regarding marriage. And the City
has expressed a constant desire to
renew its relationship with CSS as a
foster care agency if it will comply with
the City’s nondiscrimination policies
protecting same-sex couples.
Pet. App. 36a.
The court of appeals also rejected CSS’s
“compelled speech” claim. Citing Rust v. Sullivan,
500 U.S. 173 (1991), the court explained that “[t]he
problem with this argument is that the ostensibly
compelled speech occurs in the context of CSS’s
performance of a public service pursuant to a
contract with the government.” Pet. App. 40a. The
court noted that under Agency for International
Development v. Alliance for Open Society
International, 570 U.S. 205 (2013), it would be an
unconstitutional condition for the City to “refuse[] to
contract with CSS unless it officially proclaimed its
support for same-sex marriage.” Pet. App. 42a. “But
to the contrary, the City is willing to work with
organizations that do not approve of gay marriage, as
its continued relationship with Bethany Christian,
its continued relationship with CSS in its other
capacities, and its willingness to resume working
with CSS as a foster care agency attest.” Id. The
City’s contractual requirement, therefore, does not
compel speech of any kind; it simply defines the
scope of a public service program that CSS is free to
undertake, or not, as it chooses. Id. Thus, the court of
appeals held that the City’s contracts did not

14

unlawfully compel private speech or penalize CSS for
its speech outside the governmental program.
Finally, the court of appeals agreed that CSS
had failed to establish the remaining preliminary
injunction factors. Pet. App. 50a-51a. Although CSS
asserted that it would have to close its foster care
services, the court found that CSS had “not met its
burden of demonstrating that it is more likely than
not to suffer this injury” because its “congregate care
and Community Umbrella Agency functions are
unaffected” and “it has other foster care contracts
with neighboring counties.” Pet. App. 50a. Moreover,
the court found that “neither the balance of the
equities nor the public interest would favor issuing
an injunction” because “[p]lacing vulnerable children
with foster families is without question a vital public
service” and “[d]eterring discrimination in that effort
is a paramount public interest.” Pet. App. 50a-51a.
REASONS FOR DENYING THE WRIT
I.

THERE IS NO CIRCUIT SPLIT
REGARDING HOW TO ASSESS
PETITIONERS’ FREE EXERCISE
CLAIM.

The decision below is only the second court of
appeals ever to address a claim by a religious entity
that the Free Exercise Clause entitles it to a
government contract to perform a public function
while violating the contract’s neutral and generally
applicable terms to comport with its religious beliefs.
The only other decision, which was decided over a
decade ago, is Teen Ranch, Inc. v. Udow, 479 F.3d
403, 406 (6th Cir. 2007). In that case, Michigan
contracted with a religious organization to provide

15

residential treatment programs for “neglected,
abused, and emotionally troubled” teenagers. Id.
After learning that the organization was
incorporating religious programming and church
attendance as part of its performance of the contract,
Michigan terminated the contractual relationship,
and the organization sued. Id. The Sixth Circuit, like
the Third Circuit here, rejected the organization’s
claim that the Free Exercise Clause entitles a
religious organization providing government services
to dictate how those services are provided to the
public. Id.9
Petitioners nevertheless ask this Court to grant
certiorari to resolve a purported circuit split, arguing
that the Third and Ninth Circuits demand a higher
showing than other circuits to prevail on free
exercise claims. But there is simply no circuit conflict
to resolve. In accordance with Church of Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520
(1993), all the courts of appeals, including the Third
and Ninth Circuits, recognize that a law is not
neutral or generally applicable if it selectively
“permits nonreligious conduct that undermines the
government’s interests ‘in a similar or greater degree
than [religious conduct] does.’” Pet. 29 (quoting
Lukumi, 508 U.S. at 543) (alterations by
Instead of arguing, as petitioners do, that the Free Exercise
Clause requires the government to enter into contracts with
religious organizations allowing them to alter government
programs to accord with their religious beliefs, Texas and other
amici states ask the Court to grant certiorari to address
whether the Establishment Clause prohibits the government
from voluntarily doing so. See Texas, et al., Amicus Br. 3. The
facts of this case, however, do not present that issue.
9

16

petitioners).10 All of the courts of appeals, including
the Third Circuit and the Ninth Circuit, also
recognize that courts must analyze whether an
ostensibly
neutral
law
was
passed
with
discriminatory intent by examining “both direct and
circumstantial evidence,” including “the historical
background of the decision under challenge, the
specific series of events leading to the enactment or
official policy in question, and the legislative or
administrative history, including contemporaneous
statements made by members of the decisionmaking
body.” Lukumi, 508 U.S. at 540.11
See Pet. App. 31a (summarizing Third Circuit precedent
applying strict scrutiny to otherwise facially neutral laws when
exemptions meant that “religiously motivated conduct was
treated worse than otherwise similar conduct with secular
motives”); Blackhawk v. Pennsylvania, 381 F.3d 202, 209 (3d
Cir. 2004) (“A law fails the general applicability requirement if
it burdens a category of religiously motivated conduct but
exempts or does not reach a substantial category of conduct that
is not religiously motivated and that undermines the purposes
of the law to at least the same degree as the covered conduct
that is religiously motivated.”); Stormans, Inc. v. Wiesman, 794
F.3d 1064, 1079 (9th Cir. 2015) (“[I]f a law pursues the
government’s interest only against conduct motivated by
religious belief but fails to include in its prohibitions
substantial, comparable secular conduct that would similarly
threaten the government’s interest, then the law is not
generally applicable.”) (internal quotation marks omitted);
accord Pet. 23-25 (collecting cases from the Sixth, Tenth, and
Eleventh Circuits to the same effect).
10

See Pet. App. 26a-30a (explaining importance of extrinsic
evidence of discrimination when discussing Lukumi and
Masterpiece Cakeshop); Lighthouse Inst. for Evangelism, 510
F.3d at 275 (concluding that zoning plan was “neutral” because
“there is no evidence that it was developed with the aim of
infringing on religious practice”); Washington v. Trump, 847
F.3d 1151, 1167 (9th Cir.), reconsideration en banc denied, 853
11

17

Latching onto a single sentence in the Third
Circuit’s opinion, petitioners attempt to recast the
Third Circuit’s application of that well-settled test to
the facts here as a novel legal holding. According to
petitioners, the Third Circuit adopted a new rule that
for purposes of proving anti-religious targeting, “the
only relevant evidence would be evidence of an
exception for ‘another organization that did not work
with same-sex couples as foster parents but had
different religious beliefs.’” Pet. 20 (quoting Pet. App.
32a) (emphasis by petitioners).
But the Third Circuit held no such thing. It
did not limit its analysis to exemptions for agencies
that did not want to work with qualified same-sex
couples. Rather, it made a factual determination that
the record did not support petitioner’s allegations
that the City authorized any secular exemptions to
compliance with the Fair Practices Ordinance.
Although CSS contended that “referrals from one
agency to another are a routine way of finding the
best fit for a given applicant,” the Third Circuit
explained that under the City’s practice, “while
agencies are free to inform applicants if they believe
a different agency would be a better fit, they must
leave the ultimate decision up to the applicants.” Pet.
App. 35a.

F.3d 933 (9th Cir. 2017), and reconsideration en banc denied,
858 F.3d 1168 (9th Cir. 2017), and cert. denied sub nom. Golden
v. Washington, 138 S. Ct. 448 (2017) (considering extrinsic
evidence to determine whether travel ban was adopted for
purpose of discriminating against Muslims); Pet. 25-27
(collecting authority from Second, Sixth, Seventh, Eighth, and
Tenth Circuits to the same effect).

18

Petitioners also accuse the Third Circuit of
“ignor[ing]” evidence that the City targeted CSS’s
conduct by changing its policies and adopting new
antidiscrimination provisions for the 2018-19
contracts. Pet. 20. But the district court found—and
the Third Circuit agreed—that City officials believed
that discrimination against same-sex couples was
already prohibited in the 2017-18 contracts, despite
CSS’s contrary interpretation of the contract. Pet.
App. 34a-35a. Petitioners’ disagreement with that
finding of fact does not create a circuit split.
Petitioners’ discussion of the Ninth Circuit’s
decision in Stormans Inc. v. Wiesman, 794 F.3d 1064
(9th Cir. 2015), suffers from the same failure to
distinguish between the court’s legal standard and
its findings of fact. As three Justices noted when
dissenting from denial of certiorari in that case,
“[t]he Ninth Circuit did not dispute” that a policy
allowing pharmacists to refuse to fill prescriptions
for secular reasons, but not religious reasons, would
not be neutral and generally applicable. Stormans,
Inc. v. Wiesman, 136 S. Ct. 2433, 2438 (2016) (Alito,
J., dissenting from denial of certiorari). Instead, the
Ninth Circuit held that “the [d]istrict [c]ourt
committed clear error in finding that the regulations
allow refusals for a host of secular reasons.” Id. The
dissenting Justices criticized the Ninth Circuit for
failing to accord the district court’s factual findings
sufficient deference, not for applying the wrong legal
standard. Id.
The recent decision in Buck v. Gordon, No.
1:19-CV-286, 2019 WL 4686425 (W.D. Mich. Sept. 26,
2019), provides further confirmation that there is no
circuit split for this Court to resolve. Unlike the

19

courts in this case, the district court in Buck granted
a preliminary injunction to a Catholic foster care
agency that refused to work with same-sex couples.
But the district court explained that its decision was
consistent with the Third Circuit’s decision in Fulton
because of the cases’ different factual records. The
court concluded that “[u]nlike Fulton . . . the record
before the Court in this case supports an inference of
religious targeting.” Id. at 12. Buck confirms that
CSS failed to obtain a preliminary injunction in this
case because it had insufficient evidence to prove its
claim of anti-religious targeting, not because the
Third Circuit used a different legal standard. That
failure of proof is not a question of law warranting
this Court’s review.
II.

THE PROCEDURAL POSTURE OF THIS
CASE MAKES IT AN INAPPROPRIATE
VEHICLE FOR THIS COURT’S
INTERVENTION.

1.
In denying the motion for preliminary
injunction, the Third Circuit emphasized that it was
ruling based on a limited evidentiary record. See Pet.
App. 12a (“At this stage and on this record, we
conclude that CSS is not entitled to a preliminary
injunction.”). Because “a preliminary injunction is
customarily granted on the basis of procedures that
are less formal and evidence that is less complete
than in a trial on the merits,” “the findings of fact
and conclusions of law made by a court granting a
preliminary injunction are not binding at trial.”
Univ. of Tex. v. Camenisch, 451 U.S. 390, 395 (1981).
On remand, petitioners will have an opportunity to
develop the evidentiary record with the full arsenal
of discovery at their disposal. And if petitioners do

20

not prevail, they will have another opportunity to
seek this Court’s review after a complete evidentiary
record is compiled.
Instead of making a full record on remand,
petitioners ask the Court to intervene at this
interlocutory stage. But the preliminary injunction
record is sparse: it was developed in just two weeks
without the benefit of discovery. And the preliminary
injunction record is stale: CSS’s contract with the
City has expired, and there is also no evidence in the
record to show how the City has enforced the current
contractual language for the past two fiscal years.
Without a full evidentiary record, CSS’s request for
this Court’s review is premature. See Va. Military
Inst. v. United States, 508 U.S. 946 (1993) (Scalia, J.,
respecting denial of certiorari).
Petitioners assert that the Court should
preemptively intervene at this early stage to protect
“the future of Catholic foster and adoption agencies
throughout the country” that may be “forced to close
before litigation can run its course,” to the detriment
of the “over 400,000 children [who] are in foster care
nationwide.” Pet. 39. But those assertions are not
borne out by anything in the record. This case has no
impact on CSS’s private adoption services. And the
lower courts both concluded that CSS had failed to
present sufficient evidence of irreparable harm in
light of its remaining contracts with the City and
with other local jurisdictions. Pet. App. 50a, 128a.
CSS also failed to show that its intake “freeze” had
any negative effect on children in the City’s foster
care system. Pet. App. 128a. And CSS’s unsupported
assertion about harm to children nationwide is
contradicted by the actual experience of other states

21

enforcing similar nondiscrimination requirements.
See Massachusetts, et al., C.A. Amicus Br. 22-27.
2.
The petition is also a poor vehicle for
this Court’s review because it arrives to the Court
from the denial of a motion for a preliminary
injunction where the only available remedy is
prospective relief. Petitioners’ allegations, even if
proved true, might support some form of
retrospective relief but they would not support
compelling the City to allow CSS to enter into a new
government contract to provide a public service while
violating the terms of the contract. See Pet. App. 25a
n.1 (noting that such an injunction “would be highly
unusual”).
For example, in Masterpiece Cakeshop, Ltd. v.
Colorado Civil Rights Comm’n, 138 S. Ct. 1719
(2018), the Court held that anti-religious hostility
tainted an adjudicatory proceeding and thereby
violated the bakery’s free exercise rights. The Court
therefore invalidated the commission’s decision
holding the bakery liable for violating the state’s
nondiscrimination law. But it did not follow that the
bakery was free to discriminate in the future. The
Court did not enjoin the state from enforcing its
public accommodations law going forward, against
the bakery or anyone else. See id. at 1732 (“However
later cases raising these or similar concerns are
resolved in the future, for these reasons the rulings
of the Commission and of the state court that
enforced the Commission’s order must be
invalidated.”).
Whether CSS is entitled to injunctive relief
depends on the City’s reasons for requiring CSS to
adhere to the terms of the current contracts, not the

22

City’s reasons for freezing referrals to CSS under an
expired contract. See Abbott v. Perez, 138 S. Ct. 2305,
2325 (2018). Even if CSS could show that the City
acted impermissibly when it froze referrals to CSS,
the City’s past actions cannot “forever taint any
effort on [the government’s] part to deal with the
subject matter.” McCreary Cty., Ky. v. Am. Civil
Liberties Union of Ky., 545 U.S. 844, 874 (2005);
see also Trump v. Hawaii, 138 S. Ct. 2392 (2018)
(upholding facially neutral policy after facially
discriminatory policy expired pursuant to its own
terms).
In assessing the permissibility of the City’s
current contracts, evidence of its past actions “must
be weighed together with any other direct and
circumstantial evidence” of the City’s current
motivations. Abbott, 138 S. Ct. at 2325. But, as noted
above, the preliminary injunction record does not
include the text of the current contracts or any
evidence about how the City has enforced the terms
of the current contracts over the past two fiscal
years. Without an evidentiary record containing that
critical information, petitioners cannot obtain the
preliminary
injunction
they
seek
on
this
interlocutory appeal.
III.

THIS CASE IS A POOR VEHICLE TO
REEXAMINE SMITH BECAUSE EVEN
UNDER PRE-SMITH LAW, THE CITY’S
REQUIREMENT THAT CONTRACTORS
CARRYING OUT
A
GOVERNMENT
PROGRAM ABIDE BY THE TERMS OF
THE PROGRAM WOULD BE VALID.

Petitioners invite the Court to reconsider
Smith, but they assert a free exercise right that was

23

never recognized under pre-Smith precedent. Unlike
most free exercise challenges to neutral and
generally applicable laws, this case does not involve
a regulation of private conduct or the provision of a
public benefit. Rather, petitioners assert a right to
enter into contracts with the government to carry out
a public function while dictating that the government
operates its program in accordance with petitioners’
religious beliefs. Whether considered under pre- or
post-Smith precedent, the Free Exercise Clause does
not give government contractors a religiously based
veto over how governmental services are provided to
the public. And, even if strict scrutiny applied, the
City has a compelling interest in ensuring that
governmental services are provided to the public on a
nondiscriminatory basis.
1.
By prohibiting government contractors
from discriminating in the provision of governmental
services, the City is not regulating CSS or excluding
it from a public benefit. It is simply setting the terms
of a contract for a public service, and doing so in
generally applicable and religiously neutral terms.
That does not constitute a substantial burden on
CSS’s religious exercise even under pre-Smith
precedent.
Under pre-Smith precedent, this Court
recognized that neutral and generally applicable
laws could sometimes impose a substantial burden
on religious exercise. As summarized by the Court a
few years before Smith, such a law imposes a
substantial burden on religion when individuals are
“coerced by the Government’s action into violating
their religious beliefs” or “governmental action
penalize[s] religious activity by denying any person

24

an equal share of the rights, benefits, and privileges
enjoyed by other citizens.” Lyng v. Nw. Indian
Cemetery Protective Ass’n, 485 U.S. 439, 449 (1988).
But pre-Smith precedent did not recognize a
substantial burden when the government declines to
“conduct its own internal affairs in ways that
comport with the religious beliefs of particular
citizens.” Bowen v. Roy, 476 U.S. 693, 699 (1986).
In Roy, eight members of the Court agreed that the
government can assign individuals social security
numbers as a condition of receiving public benefits,
and the government’s use of those social security
numbers did not impose a “substantial burden” on
individuals with religious objections. The Court
explained that it had never “interpreted the First
Amendment to require the Government itself to
behave in ways that the individual believes will
further his or her spiritual development.” Id.
In Lyng, a majority of the Court applied the
same principle to government construction on
government property. The Court explained that
“government simply could not operate if it were
required to satisfy every citizen’s religious needs and
desires.” Lyng, 485 U.S. at 452. “The Constitution
does not, and courts cannot, offer to reconcile the
various competing demands on government, many of
them rooted in sincere religious belief, that
inevitably arise in so diverse a society as ours. That
task, to the extent that it is feasible, is for the
legislatures and other institutions.” Id.
The concerns that animated Roy and Lyng
apply with even greater force in the context of
government contracts. “The ability to set such terms
for government contractors is critically important to

25

providing government services to all for whom they
are intended, especially given the prevalent use of
contractors to provide public services in a wide
variety of areas—from road maintenance to
corrections to public health.” See Massachusetts, et
al., C.A. Amicus Br. 18. Allowing government
contractors to dictate how government services are
provided “would at a minimum hinder, and
potentially preclude altogether, government agencies’
reliance on contractors to deliver services mandated
by state law and policy to be provided to all who
qualify for them.” Id. at 19.12
Instead of protecting religious freedom,
recognizing a free exercise right to discriminate in
the provision of government services risks
undermining religious freedom by enabling
discrimination against members of minority faiths.
See Anti-Defamation League, et al., C.A. Amicus Br.
It would also raise substantial concerns under the
Establishment Clause by vesting religious organizations
authority to exercise governmental power according to religious
criteria. See Larkin v. Grendel’s Den, Inc., 459 U.S. 116 (1982).
For example, in Michigan, a state-contracted child placing
agency separated a child from his siblings because the siblings
were in the care of a same-sex couple and the agency was
unwilling to place children “in homes that do not follow Catholic
Teachings.” See Catholic Charities W. Mich. v. Mich. Dep’t of
Health & Human Servs., No. 2:19-cv-11661, Docket entry No.
23-4 (Mich. E.D. July 24, 2019). When the state learned of this,
it was able to enforce its policy of keeping siblings together by
issuing a corrective action plan. See id. If requiring government
contractors to comply with neutral, generally applicable
government program requirements constituted a substantial
burden on religion, Michigan would either have to tolerate
sibling separation by its agencies or cease contracting out child
placing services.
12

26

18-24. The current litigation concerns an agency’s
religious objections to foster families headed by
same-sex couples. But other religious agencies object
to accepting foster families that do not adhere to a
particular faith or religious denomination.13 Indeed,
until this litigation, CSS itself required prospective
foster families to submit a “pastoral letter” vouching
for a family’s observance of a faith in order to work
with the agency. Pet. App. 56a. The district court
noted that this practice discriminated not only
against families that do not associate with a religious
tradition, but also families with religious faiths that
do not include religious ministers. Id.; cf. HosannaTabor Evangelical Lutheran Church & Sch. v. EEOC,
565 U.S. 171, 202 (2012) (Alito, J., concurring)
(“[M]ost faiths do not employ the term “minister,”
and some eschew the concept of formal
ordination.”).14

See Meg Kinnard, Lawsuit claims discrimination by foster
agency,
Associated
Press
(Feb.
15,
2019),
at
https://tinyurl.com/y2lzcupp (describing lawsuit based on
agency’s refusal to approve Catholics and other non-Evangelical
Protestants as foster parents); Lydia Currie, I was barred from
becoming a foster parent because I am Jewish, Jewish Telegraph
Agency (Feb. 5, 2019), https://www.jta.org/2019/02/05/opinion/iwas-barred-from-becoming-a-foster-parent-because-i-am-jewish
(describing how foster care agency in South Carolina refuses to
accept Jewish families).
13

In Philadelphia, the City itself decides where each child in
foster care will be placed, but in other jurisdictions, the foster
care agency makes family placements for children with families
that the agency has licensed. See Maddonna v. U.S. Dep’t of
HHS, No. 6:19-cv-00448, Docket entry No. 1 (D.S.C. Feb. 15,
2019). In those jurisdictions, a foster care agency that refuses to
accept Jewish, Catholic, or Muslim foster families undermines
the religious freedom of the Jewish, Catholic, and Muslim
14

27

2.
This case is also an inappropriate
vehicle for reconsidering Smith because the City
would prevail even under strict scrutiny. The City
has a compelling interest in ensuring that
government programs do not discriminate based on a
person’s sexual orientation, and the narrowest way
to pursue that interest is to require that those
seeking to perform the public service abide by a
contractual nondiscrimination provision. See Roberts
v. U.S. Jaycees, 468 U.S. 609, 623 (1984); cf. United
States v. Lee, 455 U.S. 252, 261 (1982).
CSS argues that the City could “serve
Philadelphia’s diverse population” by contracting
with a “broad array of agencies” specializing in
serving certain communities. Pet. 6. But the
availability of another foster care agency does not
erase the injury of discrimination or eliminate its
deterrent effect on potential foster families. See
Heart of Atlanta Motel, Inc. v. United States, 379
U.S. 241, 292 (1964) (Goldberg, J., concurring). The
City was entitled to make the judgment—consistent
with well-established best practices for child welfare
and the policies of numerous states—to prohibit
discrimination against families for reasons unrelated
to the ability to care for a child, including race,
religion, and sexual orientation, so that no family is
deterred from fostering by the experience or risk of
facing discrimination. This Court’s pre-Smith
precedents do not provide a free exercise right to veto
that considered judgment. Cf. O’Hare Truck Serv.,
Inc. v. City of Northlake, 518 U.S. 712, 724–25 (1996)
(“Cities and other governmental entities make a wide
children in their care who are unable to be placed with a foster
family that shares their faith.

28

range of decisions in the course of contracting for
goods and services. The Constitution accords
government officials a large measure of freedom as
they exercise the discretion inherent in making these
decisions.”).
For all these reasons, a case involving
government contractors providing a government
service is a particularly poor vehicle for considering
the continued viability Smith. If the Court wishes to
revisit Smith, it should do so in a case that would
come out differently under pre-Smith precedent.
IV.

THE THIRD CIRCUIT FAITHFULLY
APPLIED THIS COURT’S “UNCONSTITUTIONAL CONDITIONS” PRECEDENTS

CSS argues that certifying same-sex couples
as foster families amounts to unconstitutionally
“compelled speech.” But, as the court of appeals
noted, “[t]he problem with” petitioner’s compelled
speech argument is that “the ostensibly compelled
speech occurs in the context of CSS’s performance of
a public service pursuant to a contract with the
government.” Pet. App. 39a. The City has an
obligation to find foster families to care for children
in its custody. When the City enters into contracts
for foster care services it is hiring agencies to
perform a governmental function. And when a foster
care agency certifies potential foster parents
pursuant to its contracts with the City, the agency is
acting, and speaking, in its capacity as a
governmental contractor carrying out a government
program, not as a private entity engaged in its own
speech. See Legal Servs. Corp. v. Velasquez, 531 U.S.
533, 541–42 (2001). Because the nondiscrimination

29

requirement applies only to the carrying out of the
government program and does not restrict the
contractor outside that program, it does not impose
an unconstitutional condition.
In Rust v. Sullivan, 500 U.S. 173 (1991), for
example, this Court upheld a content-based
restriction on what recipients of Title X funding
could tell patients in a government-funded program.
The Court rejected a First Amendment challenge
because the recipients were voluntarily carrying out
the government program and the limitations on their
speech applied only to the government program. Id.
at 199.
The same holds true here. It is not clear that
the nondiscrimination requirement regulates speech
at all; it prohibits discrimination in the conduct of
certifying families for foster care. But even if it did
regulate speech, the nondiscrimination requirement
limits only what the contractor does and says in
carrying out a government program.
This Court’s precedents on speech by public
employees reflect the same distinction. The First
Amendment protects the rights of public employees
or government contractors to engage in their own
private speech, but it “does not invest [them] with
the right to perform their jobs however they see fit.”
Garcetti v. Ceballos, 547 U.S. 410, 422 (2006).
“Restricting speech that owes its existence to a public
employee’s professional responsibilities does not
infringe any liberties the employee might have
enjoyed as a private citizen. It simply reflects the
exercise of employer control over what the employer
itself has commissioned or created.” Id. at 438.

30

CSS attempts to distinguish this case by
contending that without a governmental contract, it
has no opportunity to engage in foster care
certification in its capacity as a private entity. But it
is precisely because foster care is a government
service that CSS is not entitled to dictate how that
service is provided. “When a government agency
contracts out for such services, it does not create a
forum for private speech or the exercise of religious
belief, but rather a mechanism for fulfilling its
obligations to serve the public—for which it must be
able to specify requirements.” See Massachusetts, et
al., C.A. Amicus Br. 18-19.
In any event, the City has by no means shut
CSS out of the foster-care system. The City continues
to contract with CSS for its work as a congregant
care
provider
and
Community
Umbrella
Organization. CSS remains free to use its own
resources to recruit foster families and refer them to
the City or other agencies to get certified as other
agencies have done.15 It can provide support for
children in foster care and foster families. The only
thing it cannot do is demand that the City allow it to
act as a gatekeeper of which families are certified to
foster children in the City’s care and carry out that

See Massachusetts, et al., C.A. Amicus Br. 26-27 (describing
how jurisdictions with anti-discrimination requirements
continue to contract with Catholic social service organizations
“to improve the lives of foster children and other vulnerable
children and adults without violating the organizations’
religious beliefs”); Voice for Adoption, et al., C.A. Amicus Br. 1920 (applauding CSS’s recruitment and support of foster families
and noting that “[m]any avenues remain open to CSS . . . to
continue supporting foster children and foster families”).
15

31

government function in a manner that contravenes
the City’s policy of welcoming all qualified families.

32

CONCLUSION
The Court should deny the petition.
Respectfully Submitted,
Leslie Cooper
Counsel of Record
Mary Catherine Roper
Joshua A. Block
Molly Tack-Hooper
AMERICAN CIVIL LIBERTIES James D. Esseks
UNION OF PENNSYLVANIA Louise Melling
AMERICAN CIVIL LIBERTIES
P.O. Box 60173
UNION FOUNDATION
Philadelphia, PA 19102
125 Broad Street
New York, NY 10004
Fred T. Magaziner
Catherine V. Wigglesworth (212) 549-2584
lcooper@aclu.org
Will W. Sachse
DECHERT LLP
Daniel Mach
Cira Centre
David D. Cole
2929 Arch Street
AMERICAN CIVIL LIBERTIES
Philadelphia, PA 19104
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005
Date: October 10, 2019

33

